             DRUG ENFORCEMENT ADMINISTRATION
                ANNUAL FINANCIAL STATEMENT
                     FISCAL YEAR 2009

                  OFFICE OF THE INSPECTOR GENERAL
                     COMMENTARY AND SUMMARY

      This audit report contains the Annual Financial Statement of the Drug
Enforcement Administration (DEA) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the DEA’s audit
in accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2009 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2008, the DEA also received an unqualified
opinion on its financial statements (OIG Report No. 09-12).

      KPMG LLP also issued reports on internal control and on compliance
and other matters. For FY 2009, the Independent Auditors’ Report on
Internal Control over Financial Reporting identified one significant deficiency
related to vulnerabilities identified in the DEA’s financial management.
Specifically, improvements are needed over the DEA’s timely deboligation of
funds that are no longer needed. No instances of non-compliance with laws
and regulations or other matters were identified during the audit.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquires of its representatives. Our review, as differentiated
from an audit in accordance with U.S. generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the DEA’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether the DEA’s financial
management systems substantially complied with the Federal Financial
Management Integrity Act of 1996, or conclusions on compliance with laws
and regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 5, 2009, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not comply,
in all material respects, with U.S. generally accepted government auditing
standards.
